N.D.N.Y.
09-cr-125
McAvoy, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 12th day of August, two thousand twenty.
Present:
Joseph F. Bianco,
Michael H. Park,
Steven J. Menashi,
Circuit Judges.
United States of America,
Appellee,
v.

19-4069

Michael Cook, et al.,
Defendants,
Marcel Malachowski, AKA Sealed Defendant 4,
AKA Memo,
Defendant-Appellant.
Appellant, pro se, moves (1) for reconsideration of an order of an applications judge denying
appointment of counsel and (2) to expedite this appeal. The Government moves to dismiss
because no certificate of appealability (“COA”) has been issued. Upon due consideration, it is
hereby ORDERED that the motions are DENIED.
Assuming arguendo that a COA is not required to review the district court’s decision not to recuse,
the appeal is DISMISSED because it “lacks an arguable basis either in law or in fact.” Neitzke v.
Williams, 490 U.S. 319, 325 (1989); see also 28 U.S.C. § 1915(e). With respect to Appellant’s
remaining arguments challenging the district court’s denial of his Rule 60(b) motion, the appeal is
DISMISSED because Appellant has not moved for a COA, which is required for such a challenge.
See 2d Cir. Local R. 22.1(a).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
20th day of October, two thousand twenty.

United States of America,
Appellee,
v.

ORDER
Docket No: 19-4069

Michael Cook, et al.,
Defendants,
Marcel Malachowski, AKA Sealed Defendant 4, AKA
Memo,
Defendant - Appellant

Appellant, Marcel Malachowski, filed a petition for panel rehearing, or, in the alternative,
for rehearing en banc. The panel that determined the appeal has considered the request as a
motion for reconsideration, and the active members of the Court have considered the request for
rehearing en banc.
IT IS HEREB Y ORDERbD that the motion and petition are denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

Additional material
from this filing is
available in the
Clerk's Office.

